Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




       Clinical Performance Measures
             for Dialysis Facilities

    Practices of the Major Dialysis Corporations
               Supplemental Report # 1




                         JANET REHNQUIST
                       INSPECTOR GENERAL

                           JANUARY 2002
                          OEI-01-99-00053
                          OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of

Inspector General. It conducts short-term management and program evaluations (called

inspections) that focus on issues of concern to the Department, the Congress, and the public. The

inspection reports provide findings and recommendations on the efficiency, vulnerability, and

effectiveness of departmental programs. 


OEI's Boston office prepared this report under the direction of Mark R. Yessian Ph.D., Regional

Inspector General and Joyce M. Greenleaf, M.B.A., Assistant Regional Inspector General. 

Principal OEI staff included:


BOSTON                                                   HEADQUARTERS

Aimee K. Golbitz, Lead Analyst                           Bambi D. Straw, Program Specialist

Norman J. Han, Program Analyst


         To obtain copies of this report, please call the Boston Regional Office at 617-565-1050.
          Reports are also available on the World Wide Web at our home page address:

                                        http://oig.hhs.gov/oei/
                         EXECUTIVE                           SUMMARY

PURPOSE

          To describe how the five largest dialysis corporations use clinical performance measures to
          hold their facilities accountable for the quality of care.

BACKGROUND

          In our June 2000 report, External Quality Review of Dialysis: A Call for Greater
          Accountability, we urged the Centers for Medicare & Medicaid Services (CMS), formerly
          the Health Care Financing Administration, to use facility-specific clinical performance
          measures as a key part of its oversight of dialysis facilities. Clinical performance measures
          are quantitative indicators, typically expressed as a percentage, that reflect the quality of
          care patients received. CMS concurred with the directions we suggested and presented a
          detailed action plan to strengthen its use of clinical performance measures. Since then it
          has been active in carrying out this plan.

          In this follow-up inquiry, we describe the practices of the five largest dialysis corporations
          in using clinical performance measures to hold their own facilities accountable for the
          quality of care. This is a significant domain of external quality oversight that we did not
          address in our prior report and that has been largely ignored in the public sphere. We
          regard an inquiry into this domain as important because: (1) these corporations account
          for approximately 70 percent of all dialysis patients in the United States, the vast majority
          of whom are Medicare beneficiaries, and represent over 2,000 dialysis facilities, (2) they
          have a substantial body of experience in using performance measures, and (3) they have
          gained know-how that can be helpful to CMS and others.

          This report is the first of two supplemental reports focusing on clinical performance
          measures for dialysis facilities. The main report is entitled Building on the Experiences of
          Dialysis Corporations. The second supplemental report, Lessons Learned by the Major
          Dialysis Corporations and Implications for Medicare, presents 14 lessons the
          corporations have learned in collecting and using performance measures. We also make
          several recommendations to the Medicare program and present comments we received
          from CMS and other stakeholders on the draft report. All three reports are based on our
          review of corporate documents, interviews with corporate medical directors, and visits to
          a number of the corporations’ dialysis facilities. We sought to describe their processes and
          did not evaluate the overall effectiveness of their systems. We did not audit or validate the
          performance data the corporations collect from their facilities. The corporations
          voluntarily participated in this review and the data presented was self-reported by the
          corporations.

Dialysis: Practices of the Major Dialysis Corporations   i                              OEI-01-99-00053
CORPORATE PRACTICES

Dialysis Corporations Rely Heavily on Facility-Specific Performance Measures.

          This reliance has evolved and increased over more than 10 years. The key corporate
          practices encompass the following:

          Collecting many different measures. Each corporation collects at least 14 different
          clinical performance measures. They collect data on all their patients within their facilities,
          usually on a monthly basis.

          Collecting the data electronically. They collect much of the facility-specific data
          electronically, using several different approaches. Three collect some data electronically
          from clinical laboratories and two collect data directly from computerized dialysis
          machines; one relies on email to send data files.

          Reviewing the data for accuracy. They review the data prior to analysis. The reviews
          most often take place at a central level by a data analyst or statistician.

          Establishing minimum standards. They have established minimum standards for each
          performance measure. These standards specify a level below which care is unacceptable.
          If a facility fails to meet the minimum standard, the corporations expect the facility to take
          action to improve.

          Establishing goals. Three of the corporations have established clinical performance
          goals. The goals seek to give each facility a higher level of performance to aim for.

          Conducting comparative analysis at the facility level. Corporations typically compare
          a facility to its own past performance, its region and/or business division, the company as a
          whole, and the nation.

          Disseminating facility-specific reports. They disseminate facility-specific reports at
          least every quarter. Two of the corporations disseminate the reports monthly. By the
          time the facilities receive their reports the data are often less than 3 months old.

          Fostering improvements. They encourage their facilities to use performance measures to
          foster improvements in dialysis care. They look to facilities to conduct quality
          improvement projects. Toward this end, the corporations conduct training, provide
          manuals, and reward top performers.

          Intervening with poor performers. They use several strategies to intervene with
          facilities that fail to meet minimum performance standards. First, they seek to determine if
          the data reveal some basis for concern about a facility’s performance. If they do, then the
          corporations intervene through peer review, training, mandated quality improvement
          projects, or in the most serious cases, termination of facility staff or physicians.



Dialysis: Practices of the Major Dialysis Corporations   ii                             OEI-01-99-00053
CONCLUSION

          At their own initiative, the five largest dialysis corporations are carrying out a wide range
          of activities intended to make performance measures a vital, ongoing tool of quality
          improvement. The corporations differ in some of their approaches and emphases, but
          more notable are their similarities. Each collects a large number of similar performance
          measures, relies largely on electronic reporting, generates facility-specific reports that
          provide comparative assessments, and conducts outreach to help facilities make
          constructive use of the measures. In our second supplemental report, Clinical
          Performance Measures for Dialysis Facilities: Lessons Learned by the Major Dialysis
          Corporations and Implications for Medicare, we look more closely at the corporate
          practices to identify lessons learned and we also make several recommendations to CMS.




Dialysis: Practices of the Major Dialysis Corporations   iii                            OEI-01-99-00053
                          TABLE                          OF           CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


CORPORATE PRACTICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


Dialysis Corporations Rely Heavily on Facility-Specific Performance Measures . . . . . . . . . . . . . 5


          Collecting Many Different Measures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Electronic Data Collection . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Data Review Process for Accuracy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Minimum Standards for Performance Measures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Goals for Performance Measures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Comparative Analysis at the Facility Level . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Facility-Specific Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Using the Measures to Foster Improvements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Using the Measures to Intervene with Poor Performers . . . . . . . . . . . . . . . . . . . . . . . . 10


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Appendix A: Glossary of Clinical Performance Measures . . . . . . . . . . . . . . . . . . . . . . . 12


          Appendix B: Facility-Specific Performance Measures Collected by the Corporations . . 13


          Appendix C: Comparison of the Corporations’ Practices . . . . . . . . . . . . . . . . . . . . . . . 14


          Appendix D: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15





Dialysis: Practices of the Major Dialysis Corporations           iv                                            OEI-01-99-00053
CMS’ Actions

          CMS concurred with the directions we set forth and presented a detailed action plan that
          incorporated numerous efforts it had underway and would be initiating. It is drafting new
          Conditions for Coverage, Medicare regulations, for dialysis facilities, which it expects to
          release in draft in the coming months. In doing so, it plans to consider our
          recommendations to strengthen the role of the medical director, to require facilities to
          electronically report on a core set of performance measures, and to require facilities to
          conduct their own quality improvement activities.

          CMS has also committed to strengthening its existing efforts to collect facility-specific
          data on all Medicare beneficiaries as soon as it is able to put into place its new information
          system, Vital Information System for Improvement of Outcomes in Nephrology.5 This
          new information system will allow facilities to electronically report data directly to CMS.
          The system will also help ensure accurate reporting through computer software that will
          contain automatic data edits that will notify the user when data that is illogical is entered.
          CMS has already implemented the Standard Information Management System for the End-
          Stage Renal Disease Networks, which connects all the Networks together and directly
          with CMS. CMS is also revising three administrative data forms that it collects from
          facilities that contain data used to calculate performance measures. Eventually these
          forms will be submitted to CMS electronically by the facilities.

          Since 1995, CMS, via the End-Stage Renal Disease Networks, has distributed Unit-
          Specific Reports that provide comparative, facility-specific data, which includes mortality
          and hospitalization rates. Facility-specific urea reduction ratio and hematocrit levels were
          added to the reports after 1998. In January 2001, CMS publicly released comparative
          facility-specific reports that contained three performance measures: urea reduction ratio,
          hematocrit, and mortality. The reports are available on the Internet.6 In July 2001, CMS
          distributed to State survey agencies, facility-specific reports that also contain key
          performance measures. State survey agencies use these reports to assist in selecting
          facilities for review and to focus Medicare certification surveys. Currently the majority of
          the data in these reports comes from Medicare billing and administrative data and the data
          are over 2 years old. As the CMS implements its Vital Information System for
          Improvement of Outcomes in Nephrology it is expected that the data for these reports will
          be more timely (see appendix B for more detailed information about Federal sources of
          performance data).

          Finally, CMS revised its process to review and approve each of the Networks annual
          quality improvement projects. The new process is intended to reduce variation in the
          quality of projects and help Networks design more sophisticated projects. The new
          process also gives Networks more guidance on what topic areas they should focus on for
          their quality improvement projects.




Dialysis: Practices of the Major Dialysis Corporations   2                             OEI-01-99-00053
Dialysis Corporations Use of Clinical Performance Measures

          In this follow-up inquiry we focus on the experiences of large, corporate dialysis providers
          in using clinical performance measures as a way of holding their own facilities accountable
          for the quality of care provided. This is a significant domain of external quality oversight
          that we did not address in our prior report and that has been largely ignored in the public
          sphere.

          We regard it as important to learn more about the experiences of these providers for three
          major reasons. First, as the dialysis industry has consolidated in recent years, these
          corporations have become a major force in the dialysis field. The five largest
          corporations, which we focus on in this report, now account for about 70 percent of all
          dialysis patients in the United States, the vast majority of whom are Medicare
          beneficiaries.7 They account for over 2,000 of the nation’s 3,500 dialysis facilities.8
          Second, they have a substantial body of experience in using performance measures to
          monitor the quality of care at their own facilities. And, third, they have gained know-how
          that may be useful to Federal efforts.

Methodology

          We limited our inquiry to the five largest providers: Fresenius Medical Care North
          America, Gambro Healthcare, Davita (formerly Total Renal Care), Renal Care Group, and
          Dialysis Clinic, Inc. In selecting the top five, we do not seek to imply that they are
          necessarily the best in using performance measures, nor to suggest that other corporations
          or independently owned facilities are not also experienced in using such measures. Each
          of the five corporations participated in our study voluntarily and made available to us
          information concerning its practices. The information we present is current as of June
          2001. The information contained in this report was self-reported by the dialysis
          corporations.

          At the outset, we considered including in our review measures that relate to clinical
          performance, patient satisfaction, and adverse events. Each is important to national policy
          and in each case the corporations have some relevant experience. However, for this
          inquiry, we decided to limit our focus to clinical performance measures in order to allow
          for greater detail. Clinical performance measures are the measures that the corporations
          have the most experience with, receive most of their attention, and bear most immediately
          on CMS’ oversight.

          Our data-gathering methods included two focus groups with the medical directors of the
          five corporations, further interviews with each of the corporate medical directors and
          other corporate officials, visits to several of the corporations’ dialysis facilities, and
          reviews of pertinent documents of the corporations.

          It is important to underscore that our inquiry is not an evaluation of the corporations’
          practices. They have been carrying out these practices at their own initiative, not in



Dialysis: Practices of the Major Dialysis Corporations   3                             OEI-01-99-00053
          response to any Federal requirements. We did not seek to assess how well they are using
          performance measures, nor did we obtain sufficient information to make such an
          assessment. We did not audit or validate the performance data the corporations collect
          from their facilities. We did seek to gain a clear understanding of their current practices.

This Report and its Companion Report

          This report is the first of two supplemental reports based on the main report entitled,
          Clinical Performance Measures for Dialysis Facilities: Building on the Experiences of
          the Dialysis Corporations (OEI-01-99-0052). This first supplemental report offers a
          description of the corporate practices concerning the use of facility-specific performance
          measures. We address specifics concerning data collection, validation, analysis,
          dissemination, and corporate practices concerning fostering improvement and intervening
          with poor performers.

          The second supplemental report, Clinical Performance Measures for Dialysis Facilities:
          Lessons Learned by the Major Dialysis Corporations and Implications for Medicare
          (OEI-01-99-00054), begins with two lessons associated with establishing a foundation for
          accountability within the dialysis facilities. It then turns to 12 lessons learned from
          implementing clinical performance measures. We also make several recommendations to
          CMS. In this report we include the complete comments we received from CMS and other
          stakeholders on the draft reports in appendix C.

          We conducted this study in accordance with the Quality Standards for Inspections issued
          by the President’s Council on Integrity and Efficiency.




Dialysis: Practices of the Major Dialysis Corporations   4                             OEI-01-99-00053
                    CORPORATE                                PRACTICES

Dialysis corporations rely heavily on facility-specific performance
measures to foster accountability.

          The corporations have been collecting performance measures for more than 10 years.
          They have invested considerably in staff, computers, training, and other resources needed
          to collect and apply facility-specific performance measures. One corporation estimated its
          annual budget related to using performance measures at around $7 million.

          Corporate officials shared several reasons for investing in performance measures. One of
          the major reasons was a strong desire to provide top-quality dialysis care. Performance
          measures allowed them to systematically monitor quality and identify areas for
          improvement. One corporate official stated, “Without the data we are blind.” Another
          reason was that, in the long term, high quality care will lead to increased profitability,
          “good care is good business.” Patients that are healthier have fewer hospital stays and live
          longer, and provide more business for the dialysis facility. They also underscored that
          higher quality of care leads to patient and personnel retention. Dialysis facilities compete
          intensely for patients, nephrologists, nurses, and other staff. The corporate representatives
          believed that facilities with a high commitment to quality are better able to attract and
          retain both staff and patients.

Each corporation collects at least 14 different clinical performance measures.
                                                                             Common Dialysis
          The corporations typically collect the data on all the           Performance Measures
          patients within their facilities, with the exception in some
          cases of those patients in a managed care plan. The             Urea reduction ratio

          measures they collect are familiar to most renal                KT/V

          professionals and capture various clinical aspects of           Hematocrit

                                                                          Hemoglobin

          dialysis treatment. They include measures that evaluate         Ferritin level

          adequacy of dialysis treatment, anemia management,              Transferrin saturation

          nutritional level, vascular access, bone disease, and           Parathyroid

          hypertension (see box and appendix B). In addition, all         Albumin

          the corporations collect data on mortality, hospitalization,    Blood pressure

                                                                          Hospitalization rate

          and the number of missed treatments. The corporations
                                                                          Missed treatments

          collect the data regularly, typically on a monthly basis and,   Mortality rates

          in some cases, every treatment.                                 Peritonitis rates

                                                                          Vascular access

                                                                          Clotting events

                                                                          Transplantation rate

                                                                          Creatinine clearance


                                                                          See appendix A for a

                                                                          glossary of terms.




Dialysis: Practices of the Major Dialysis Corporations   5                              OEI-01-99-00053
The corporations collect much of the facility-specific data electronically, using
several different approaches.

          The corporations use a combination of several strategies to collect data. To a varying
          extent all the corporations still rely on paper forms for some data elements, especially
          mortality and hospitalization. But the majority of measures are collected electronically.
          Three corporations collect some performance measures, such as KT/V or hemoglobin,
          directly from the laboratories, thereby eliminating any need for facility staff to enter or
          transmit these values. The lab enters the data and the company downloads it. Two of the
          corporations collect several measures, such as time of dialysis and blood pressure, directly
          from computerized dialysis machines. The corporation can then download the data at any
          time, thereby eliminating the need for any manual entry by facility staff. One corporation
          installed computer terminals at each dialysis treatment station, thereby allowing the nurses
          to manually enter data at the time of treatment. Later the data is downloaded into the
          company’s central database. Similarly, electronic medical records allow for certain items
          to be abstracted and downloaded by a central repository. Finally, one company simply has
          its facilities email an attached data file to a central repository.

          But even electronic data submission still requires someone to enter the data into the
          system in the first place. Most often this responsibility was left to the nurses. It was rare
          that a dialysis facility had a full-time person dedicated to data entry.

The corporations review the data for accuracy prior to analysis.

          Each of the five corporations has a process in place to review the data. The reviews most
          often take place at a central level where all the data can be reviewed at once. All have
          full-time data analysts or statisticians at the central level that regularly monitor the data
          provided by the facilities. One corporate medical director told us that he spends a
          considerable amount of his time on the phone with facilities asking questions about the
          data to ensure its accuracy. When information is missing or seems questionable, the data
          analyst or statistician verifies or obtains the missing information from the facility. The
          corporations also rely on software programs for data analysis that have automatic data
          edits built in that prevent illogical data from being included in analysis.

          Some of the corporations have also devised tools to help the facilities review the data
          themselves for accuracy at the local level prior to submitting it to a central location for
          analysis. One corporation provides a checklist detailing common errors to look for in each
          individual performance measure. Another corporation has each facility administrator and
          unit secretary review the data. The corporations have also built into their computer
          software program for data entry, automatic edits so that the facility nurse who happens to
          type “12” for a KT/V value instead of “1.2” is alerted and can immediately correct it.
          Several of the corporations provide facility-specific data audit reports that show the
          number of missing values and the percentages of errors.




Dialysis: Practices of the Major Dialysis Corporations   6                              OEI-01-99-00053
Three of the corporations have also established clinical performance goals.

   Goals differ from minimums in that they set a higher bar. Corporations established the goals to
encourage all facilities to improve. In the cases where a facility achieved the goals, corporations
would often recognized that facility in some way, such as with an award or a bonus to the staff.

          Like minimum standards, expert committees established the goals. One company
          established its goals by using the values achieved by the top 10 percent of its facilities.
          Another corporation stated that its goal is to have 100 percent of its patient meet the
          target values set for each measure.

All the corporations conduct comparative analysis of the performance measures
at the facility level.

          The corporations conduct analysis of all facility data at a central level. They have full-time
          staff to analyze facility data and create facility-specific reports. The most routine type of
          analysis performed is comparisons. The facility-specific reports show an individual
          facility’s performance compared with its own past performance, its region’s performance,
          its business division’s performance, and its company-wide performance. (The figure
          below is an excerpt from one corporation’s facility-specific report on the clinical
          performance measure the urea reduction ratio. It shows how four facilities compare to
          their own past performance, and other facilities in their region. The dotted line represents
          the minimum performance standard.) Another corporation lists the percentile the facility is
          in for each clinical performance measure on its reports.

                              Excerpt From a Corporation’s Facility-Specific Report




Dialysis: Practices of the Major Dialysis Corporations   8                               OEI-01-99-00053
Along with the results of the individual facilities, the corporations analyze the data at the regional
or business division level and at a company-wide level. These reports show how each region or
business division is meeting the stated clinical performance measure targets set by the corporation.
Some of the corporations even compare the company-wide performance with the nation. For
national clinical performance data the corporations rely on data collected by CMS.10

All of the corporations disseminate facility-specific reports at least every quarter.

          Two of the corporations disseminate their facility-specific reports monthly and the
          remaining three disseminate their reports quarterly. By the time the facilities receive their
          own report, the data is often less than 3 months old and in some cases just weeks old.

          Four of the corporations disseminate facility-specific reports through their corporate
          computer network. Once the reports are on the networks they can be accessed by facility
          medical directors, facility administrators, nurses and other key personnel at any time. One
          corporation has its facility-specific reports on the web, allowing physicians to log in from
          any computer connected to the Internet, enter their passwords, and see a facility’s clinical
          performance measures.

          Currently, none of the corporations make its facility-specific reports routinely available to
          the public. However, at least two of the companies indicated that if a patient requests
          facility-specific performance measures, they would share them. Some aggregate data on
          the company’s performance as a whole is often available through public financial reports.
          One corporation routinely makes public aggregate data on the company’s performance as
          a whole through various corporate publications.

The corporations encourage all their facilities to use their performance measures
to foster improvement in dialysis care.

          None of the corporations simply collect and disseminate the data. The corporations have
          built a support and accountability infrastructure to maximize the effectiveness of the
          measures. The corporations encourage all their facilities to conduct quality improvement
          projects, designed and implemented at the facility level. To foster this goal, all the
          corporations have developed training programs and materials for facility staff regarding
          the use of performance measures. These programs and materials help educate nurses and
          physicians about performance measures in general, how to interpret their facilities’ results,
          and how to develop a plan of action to improve. The companies conduct many of these
          training sessions in central locations and sometimes the corporations conduct specialized
          training for just one facility. The training sessions tend to be interactive and focused on
          actual case examples so that, by the end of the training session, the participants have a
          plan they can implement at their facility.

          Corporations also encourage the facilities to use the data in other ways besides training.
          One corporation regularly holds conference calls that physicians, nurses, and other



Dialysis: Practices of the Major Dialysis Corporations   9                              OEI-01-99-00053
          facility staff can call in and share their success stories or ask questions. All the
          corporations have devised tools to help facilities conduct various quality improvement
          projects. These tools include how-to guides, worksheets, and best practices. Finally,
          some of the corporations conduct corporate-wide improvement projects.

          All the corporations have devised ways to reward top performers. Some of the
          corporations compensate the medical directors based on how well their facility meets the
          corporate performance measurements. In addition, several corporations rank their
          facilities based on various performance measures and recognize the best overall with a
          luncheon and/or staff bonuses.

Corporations use several strategies to intervene with facilities that continually fail
to meet minimum standards.

          Corporations tend to intervene if a facility performance continually declines on several
          performance measures, continually fails to improve on its performance measures, or the
          performance measures suggest a problem that is an immediate threat to patient lives. But,
          prior to intervening, the corporations will try to confirm that the data are accurately
          depicting the quality of care. This is often done by examining the patient population,
          complaints, results of State surveys, recent patient satisfaction surveys, and adverse
          events. In doing so, the corporations are trying to rule out that other factors such as
          patient demographics or comorbidities do not account for performance measures.
          Although all the corporations risk adjust some of their data, they are unable to account for
          everything. A facility could have poor outcomes because it has sicker patients.

          The corporations first look to peer review when they need to intervene with a facility.
          They have committees of regional medical directors that analyze the facility’s clinical
          performance measures. The committee discusses with the facility’s medical director why
          the facility is not meeting the minimums and how to improve performance. Along with
          this collegial approach, corporations may require the facility to submit a continuous
          quality improvement project to address the specific problem that is adversely affecting its
          performance. Corporations also have a quality team comprised of doctors, nurses,
          dieticians, and social workers who work with the facility in a peer-to-peer manner.

          When peer review fails, many of the corporations start to work with the facility on site.
          One corporation sends a group of clinicians to the facility and actually evaluates how well
          the facility has addressed the problem. Another corporation also sends a similar team to
          the facility and conducts a mock Medicare certification survey of the facility.

          Another approach is to involve the corporate medical director. One corporation requires
          the medical director meet with the chief corporate medical director to formally discuss the
          facility’s performance. Another corporation sends a letter outlining the facility’s
          deficiencies and asks the facility’s medical director to start addressing the problems.
          Finally, corporations can remove a medical director or an attending physician from the
          clinic.


Dialysis: Practices of the Major Dialysis Corporations   10                           OEI-01-99-00053
                                           CONCLUSION

          At their own initiative, the major dialysis corporations are making significant commitments
          to using clinical performance measures as tools of quality improvement. While our review
          did not seek to assess how effective their efforts have been to date, it did make clear that
          their current practices cover a wide range of activities that are crucial to improving the
          quality of care and that parallel in fundamental ways activities that CMS is undertaking as
          part of its national leadership. Our review also made clear that the corporations have
          developed a considerable body of experience on the do’s and don’ts of performance
          measurement.

          Among the five corporations there are some differences in approaches and emphases, but
          what impressed us much more was the similarities. Each of them collects a large number
          of measures (by and large the same), relies largely on electronic reporting, generates
          timely, facility-specific reports that compare a facility’s performance with other facilities
          and its own past performance, and conducts outreach to urge and help individual facilities
          to commit themselves to quality improvement projects (see appendix C).

          In our second report, Clinical Performance Measures for Dialysis Facilities: Lessons
          Learned by the Major Dialysis Corporations and Implications for Medicare (OEI-01-99-
          00054), we delve more deeply into the corporate practices to identify the lessons that flow
          from them. We also provide several recommendations to CMS as it fosters the use of
          performance measures to improve the quality of dialysis care.




Dialysis: Practices of the Major Dialysis Corporations   11                            OEI-01-99-00053
                                                                                             APPENDIX A



              Glossary of Clinical Performance Measures For Dialysis
          Albumin: A measure of the level of proteins in the blood, used to monitor the level of nutrition.

          Anemia: Inadequate red blood cells, a common concern among dialysis patients that can lead to extreme
          fatigue and other complications.

          Catheter: A type of vascular access. A tube placed in a patient’s blood vessel, primarily used for
          temporary access to the blood stream.

          Clotting events: Arteriovenous fistulas, both native and synthetic, can become clotted with the patient’s
          blood causing complications for the dialysis patient.

          Creatinine clearance: A measure used to determine adequacy in peritoneal patients. Creatinine
          clearance measures the removal of the protein creatine from the body.

          Ferritin level: A measure of the level of iron stored within the body.

          Hematocrit: A measure of the ratio of red blood cells to the plasma volume. Used to monitor anemia.

          Hemoglobin: A measure of the amount of a specific protein in red blood cells that carries oxygen. Used
          to monitor anemia.

          KT/V: A function of the amount of urea removed multiplied by the time on dialysis, divided by the
          volume of urea distribution, or approximately the amount of water in the body. Used to monitor the
          adequacy of the dialysis treatment.

          Native arteriovenous (AV) fistula. A type of vascular access. A patient’s own artery and vein are
          surgically joined to allow arterial blood to flow through a vein, usually placed in the forearm and takes
          several weeks to mature.

          Parathyroid: A hormone that regulates calcium and phosphorus and is used to monitor bone disease.

          Peritonitis: An inflammation of the peritoneum, a membrane that lines the stomach, that can occur in
          individuals receiving peritoneal dialysis.

          Synthetic arteriovenous (AV) graft: A type of vascular access. A synthetic blood vessel is used to
          surgically join the patient’s artery and vein, usually placed in the forearm and takes several weeks to
          mature.

          Transferrin saturation (TSAT): A measure of iron immediately available to produce red blood cells.
          Used to manage and monitor anemia in dialysis patients.

          Urea reduction ratio (URR): A measure of the amount of urea removed during dialysis, as determined
          by pre- and post-dialysis blood urea nitrogen levels. Used to monitor the adequacy of dialysis treatment.

          Vascular access: The point of direct access to the blood stream for hemodialysis. There are three types:
          catheter, native arteriovenous fistula, and synthetic arteriovenous graft.


Dialysis: Practices of the Major Dialysis Corporations    12                                        OEI-01-99-00053
                                                                                                                  APPENDIX C


                 Comparison of the Dialysis Corporations’ Practices in Collecting and
                      Using Facility-Specific Clinical Performance Measures


                                                             Company        Compan         Compan       Compan         Compan             CMS
                                                               #1              y             y            y              y
                                                                              #2             #3           #4             #5
Years of experience in collecting facility-specific              10+           20+            10+           20+             5              10+
performance measures

Percentage of patients within a facility for which              100%          100%           100%         100%*           100%           All
measures are collected                                                                                                                 Medicare
                                                                                                                                       Patients

Data collected electronically from dialysis machine               no            no             yes          no             yes             no

Data submitted electronically from the facility                   yes          yes             yes          yes            yes             no

Data collected electronically from labs                           yes           no             yes          yes            no              no

Frequency of data collection                                   monthly       monthly           by        monthly        monthly           varies
                                                                                           treatment

Frequency of dissemination of facility-specific                monthly       quarterly      monthly      quarterly      monthly        annually
performance reports

Age of data by time it is disseminated                        less than 4   1 day to 12    1-3 weeks    6-7 weeks       4 weeks        ~3 years
                                                                weeks         weeks

Main format for facility-specific reports                      intranet      intranet       intranet    intranet and   intranet and   internet and
                                                                                                            mail           mail           mail

Compares the facility to its region                               yes          yes             yes          yes            yes             yes

Compares the facility to the past                                 yes          yes             yes          yes            yes             yes

Compares the facility to the company                              yes          yes             yes          yes            yes            NA**

Compares the facility to the entire nation                        yes          yes             yes          yes            yes             yes

Compares the facility to a minimum standard                       yes          yes             yes          yes            yes             yes

Compensation for the facility medical directors is                no            no             no           yes            yes            NA**
tied to performance measures

Facility-specific clinical performance measures are               no            no             no           no             no             some
routinely publicly available

Provide physician-specific reports                                yes           no             yes          no           yes***            no

*except for patients in managed care plans, **not applicable, *** only for facility medical directors




               Dialysis: Practices of the Major Dialysis Corporations          14                                       OEI-01-99-00053
                                                                               APPENDIX D


                                                         Endnotes

1. Dialysis is the process of removing toxins from the body by diffusion across a semipermeable
membrane, thereby compensating for kidney failure. There are two types of dialysis: hemodialysis
and peritoneal dialysis. Hemodialysis involves the removal of toxins directly from the patient’s
blood stream, requiring direct access to the bloodstream. The patient’s blood is cycled through an
artificial kidney, an external machine, that removes the toxins and excess fluids from the blood.
The artificial kidney machine uses a semipermeable membrane, called a hemodialyzer, to filter out
the toxins from the blood. Peritoneal dialysis utilizes the patient’s natural peritoneal membrane,
located in the abdominal cavity, to remove toxins and excess fluids.

2. The 2001 USRDS Annual Data Report Reference Tables, The United States Renal Data
System, Section J. Accessed via the Internet at [http://www.usrds.org/reference.htm].

3. The End-Stage Renal Disease Networks, established in 1976, are CMS’ main contractors for
monitoring dialysis facilities, as they are entirely focused on dialysis facilities. CMS relies on the
18 regional Networks to collect data from facilities, conduct annual quality improvement projects,
and evaluate and resolve complaints. The main mission of the Networks as set out in the Statute
is to ensure “effective and efficient administration of the benefits” provided under the end-stage
renal disease program. Section 1881(c) of the Social Security Act.

4. CMS contracts with the State survey agencies, typically within departments of public health, to
conduct on-site Medicare certification surveys of facilities and to investigate complaints, both in
accordance with Medicare Conditions for Coverage for dialysis facilities.

5. Department of Health and Human Services, Office of Inspector General, External Quality
Review of Dialysis Facilities: A Call for Greater Accountability, OEI-01-99-00050, June 2000,
page 47.

6. See [http://www.medicare.gov/Dialysis/Home.asp].

7. Based on figures from, “The Ten Largest Renal Providers,” Nephrology News and Issues,
Vol. 15 No. 8, July 2001 p. 30, and The 2001 USRDS Annual Data Report Reference Tables,
The United States Renal Data System, Section J. Accessed via the Internet at
[http://www.usrds.org/reference.htm].

8. Ibid.

9. See the following website for the targets established by the National Kidney Foundation,
[http://www.kidney.org/professionals/doqi/index.cfm].

10. CMS collects several key clinical performance measures through billing and administrative
forms. They are urea reduction ratio, hematocrit, mortality, and hospitalization. Facilities

Dialysis: Practices of the Major Dialysis Corporations      15                        OEI-01-99-00053
                                                                               APPENDIX D


typically submit these billing forms electronically to fiscal intermediaries that process Medicare
claims submitted by the facilities, and then pass the data on to CMS.

CMS also collects over 16 clinical performance measures for its Clinical Performance Measures
Project through the End-Stage Renal Disease Networks on a national sample of Medicare
beneficiaries each year. The measures include the KT/V, urea reduction ratio, serum albumin, and
hemoglobin. Facilities submit the data on paper forms to the Networks. Networks enter the data
into CMS’ data system. The Networks validate a sample of the data.




Dialysis: Practices of the Major Dialysis Corporations   16                          OEI-01-99-00053
